   February 5, 2004




Cooperative Threat Reduction

Management Structure of the
Cooperative Threat Reduction
Program
(D-2004-050)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ATSD(NCB)             Assistant to the Secretary of Defense (Nuclear and Chemical and
                         Biological Defense Programs)
CTR                   Cooperative Threat Reduction
DTRA                  Defense Threat Reduction Agency
DUSD(TSP&CP)          Deputy Under Secretary of Defense (Technology Security Policy
                         and Counterproliferation)
FSU                   Former Soviet Union
IG DoD                Inspector General of the Department of Defense
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology, and
                         Logistics
USD(P)                Under Secretary of Defense for Policy
WMD                   Weapons of Mass Destruction
          Office of the Inspector General of the Department of Defense
Report No. D-2004-050                                                     February 5, 2004
   (Project No. D2002LG-0219.02)

                   Management Structure of the Cooperative
                         Threat Reduction Program

                                   Executive Summary

Who Should Read This Report and Why? Acquisition professionals and individuals
who assist in the development of organizational structures should read this report. This
report discusses topics of significant congressional, national, and international interest.

Background. This report, which is one in a series requested by the Deputy Secretary of
Defense, discusses the organizational arrangements between the Office of the Under
Secretary of Defense for Acquisition, Technology, and Logistics; the Under Secretary of
Defense for Policy; and the Defense Threat Reduction Agency. The objectives of the
Cooperative Threat Reduction (CTR) program are to destroy chemical, nuclear, and other
weapons; to transport, store, disable, and safeguard weapons until their destruction; and
to establish verifiable safeguards against proliferation of weapons of mass destruction.
This report discusses the organizational arrangements of the CTR Program. We
previously reported on individual CTR projects for building disposal facilities for liquid
propellant and solid rocket motors, storage facilities for fissile materials, and destruction
facilities for chemical weapons.

Results. The Under Secretary of Defense for Acquisition, Technology, and Logistics did
not fulfill his responsibilities for managing the implementation and execution of CTR
Projects. For the four CTR projects on which we previously reported, the Government
lost $195.2 million because the disposal facilities for liquid propellant and solid rocket
motors will not be used for their intended purposes. Also, although DoD has invested
$576.7 million on storage facilities for fissile materials and destruction facilities for
chemical weapons, those projects are at risk of not being fully used for their intended
purposes. The Director, Administration and Management should coordinate with the
Under Secretary of Defense for Acquisition, Technology, and Logistics; the Under
Secretary of Defense for Policy; and the Director, Defense Threat Reduction Agency to
update DoD directives to clarify the CTR responsibilities. Although the Under Secretary
of Defense for Acquisition, Technology, and Logistics established a position to oversee
CTR implementation in July 2003, he needs to determine the appropriate staffing level
for that office, fill those positions, and determine what management information is
needed to fulfill the roles, responsibilities, and coordination requirements for the CTR
Program. (See the Finding section of the report for the detailed recommendations.)

Management Comments. The Under Secretary of Defense for Acquisition,
Technology, and Logistics and the Director, Administration and Management concurred
with the recommendations. Although not required to comment, the Under Secretary of
Defense for Policy and the Director, Defense Threat Reduction Agency agreed with the
recommendations. See the findings section of the report for a discussion of the
management comments and the Management Comments section for the complete text.
Table of Contents

Executive Summary                                                       i

Background                                                              1

Objectives                                                              3

Findings
     Effectiveness and Sufficiency of Organizational Arrangements       4

Appendixes
     A. Scope and Methodology                                          12
     B. Prior Coverage                                                 13
     C. Report Distribution                                            15

Management Comments
     Under Secretary of Defense for Policy                             17
     Assistant to the Secretary of Defense (Nuclear and Chemical and
        Biological Defense Programs)                                   18
     Director, Administration and Management                           20
     Defense Threat Reduction Agency                                   21
Background
    On March 18, 2002, the Deputy Secretary of Defense requested that the Office of
    Inspector General of the Department of Defense (IG DoD) review the
    Cooperative Threat Reduction (CTR) projects that rely on Russian Federation
    (Russia) assurances and that are vulnerable to misuse and review the
    organizational arrangements between the CTR Policy office within the Office of
    the Under Secretary of Defense for Policy (USD[P]) and the CTR Directorate at
    the Defense Threat Reduction Agency (DTRA). This report discusses the
    organizational arrangements between the Office of the Under Secretary of
    Defense for Acquisition, Technology, and Logistics (USD[AT&L]); USD(P); and
    DTRA. On September 30, 2002, we issued IG DoD Report No. D-2002-154,
    “Cooperative Threat Reduction Program Liquid Propellant Disposition Project,”
    on September 11, 2003, we issued IG DoD Report No. D2003-131, “Cooperative
    Threat Reduction Program: Solid Rocket Motor Disposition Facility Project,”
    and on December 18, 2003, we issued IG DoD Report No. D-2004-039,
    “Cooperative Threat Reduction Construction Projects.” IG DoD Report
    No. D-2004-039 reports on the Chemical Weapons Destruction Facility and the
    Fissile Material Storage Facility. This report concludes the review requested by
    the Deputy Secretary of Defense.

    To reduce the threat posed by weapons of mass destruction (WMD) in the
    territory of the former Soviet Union (FSU), Congress enacted Public
    Law 102-228 (section 2551 [note], title 22, United States Code), “Soviet Nuclear
    Threat Reduction Act of 1991,” December 12, 1991. Public Law 102-228
    designates DoD as the executive agent for the CTR Program. Public
    Law 102-228 and subsequent laws that continue the CTR Program are commonly
    referred to as Nunn-Lugar legislation. The objectives of Public Law 102-228 are
    to destroy chemical, nuclear, and other weapons; to transport, store, disable, and
    safeguard weapons until their destruction; and to establish verifiable safeguards
    against proliferation of WMD. From FY 1992 through FY 2003, Congress
    appropriated $5.1 billion for the CTR Program.

    Framework for Assistance. DoD provides assistance to FSU countries through
    umbrella agreements and implementing agreements. The umbrella agreement
    with Russia, signed on June 17, 1992, establishes the overall framework under
    which the United States provides assistance to Russia. The umbrella agreement,
    which was to expire in June 1999, was extended by a protocol in June 1999 for an
    additional seven years.

    DoD Program Management. A joint memorandum and DoD directives provide
    the overall responsibilities of DoD Components for the CTR Program. The joint
    memorandum from the Under Secretary of Defense for Acquisition (now
    USD[AT&L]) and USD(P), "Strengthening Cooperative Threat Reduction (CTR)
    Implementation, Decision Memorandum,” May 3, 1994, details organizational
    relationships for the CTR Program. The Deputy Secretary of Defense approved
    that memorandum, commonly referred to as the 1994 Decision Memorandum, on
    May 6, 1994.




                                         1
        1994 Decision Memorandum. The 1994 Decision Memorandum
provides the roles and responsibilities of USD(AT&L) and USD(P) for the CTR
Program. That memorandum also established a CTR Program office under
USD(AT&L) and located with the Assistant to the Secretary of Defense (Nuclear
and Chemical and Biological Defense Programs) (ATSD[NCB]). The
memorandum described a “seamless transition in leader/advisor” where USD(P)
would initially lead program development while USD(AT&L) provided advice.
USD(P) was to develop program concepts, notify Congress of new programs and
projects, and modify the budget to obtain funding. The USD(P) was also to
negotiate detailed implementing agreements with FSU countries while
USD(AT&L) provided advice to ensure that provisions in those agreements
would conform to what DoD could actually accomplish. After USD(P) signed
implementing agreements and approved CTR programs, USD(AT&L) was to
develop detailed implementation plans and acquisition structures. USD(AT&L)
was also responsible for contractual obligations, while USD(P) ensured that
program goals and budgets met the program conditions.

        USD(AT&L) Responsibilities. DoD Directive 5134.1, “Under Secretary
of Defense for Acquisition, Technology, and Logistics (USD(AT&L)),” April 21,
2000, and DoD Directive 5134.8, “Assistant to the Secretary of Defense for
Nuclear and Chemical and Biological Defense Programs (ATSD(NCB)),” June 8,
1994, define USD(AT&L) responsibilities for the CTR Program.
DoD Directive 5134.1 states that the USD(AT&L) is the principal staff assistant
and advisor to the Secretary of Defense and Deputy Secretary of Defense for
various matters including environmental security; military construction; nuclear,
chemical, and biological matters; and procurement. The Directive also states that
the USD(AT&L) exercises authority, direction, and control over the Director,
DTRA through the Director of Defense Research and Engineering. The Directive
requires USD(AT&L) to develop international agreements related to acquisition
matters, in coordination with USD(P) and the General Counsel of the Department
of Defense. Other officials within the Office of the Secretary of Defense are to
coordinate with USD(AT&L) on matters related to its responsibilities and
functions. DoD Directive 5134.8 states that ATSD(NCB) manages the execution
and implementation of concluded implementing agreements for CTR projects.
That office is directly responsible to the Secretary of Defense and Deputy
Secretary of Defense for matters associated with nuclear weapons safety and
security, chemical weapons demilitarization, and chemical and biological defense
programs.

        USD(P) Responsibilities. DoD Directive 5111.1, “Under Secretary of
Defense for Policy (USD(P)),” December 8, 1999, and DoD Directive 5111.8,
“Assistant Secretary of Defense for Strategy and Threat Reduction
(ASD(S&TR)),” February 3, 2000, provide USD(P) responsibilities for the CTR
Program. DoD Directive 5111.1 states that the USD(P) is the principal staff
assistant and advisor to the Secretary of Defense and Deputy Secretary of Defense
for formulating national security and defense policy. USD(P) develops policy for
defense-related international negotiations and develops, coordinates, and oversees
implementation of DoD policies to reduce and counter the threat of WMD,
including counterproliferation policy, arms control policy, and security policy.
USD(P) also represents DoD in matters involving the National Security Council
and other Federal agencies with responsibility for national security policy. DoD


                                    2
    Directive 5111.8 states that the Assistant Secretary of Defense (Strategy and
    Threat Reduction), now called the Assistant Secretary of Defense (International
    Security Policy), develops, coordinates, and oversees implementation of CTR
    policy, including safety, security, and dismantlement of WMD and associated
    materials and infrastructure. The Assistant Secretary of Defense (International
    Security Policy) also negotiates and concludes international agreements for the
    CTR Program. In addition, the Assistant Secretary of Defense (International
    Security Policy), in coordination with the USD(AT&L), provides national
    security and defense strategy policy guidance for the CTR Program. Beginning in
    2001, the Assistant Secretary of Defense (International Security Policy) carried
    out responsibilities for the CTR Program through the Deputy Under Secretary of
    Defense (Technology Security Policy and Counterproliferation)
    (DUSD[TSP&CP]). DoD Directive 5105.62, “Defense Threat Reduction
    Agency,” September 30, 1998, states that USD(P) provides policy guidance to the
    Director, DTRA in order to implement the CTR Program.

           DTRA Responsibilities. DTRA operates under the authority, direction,
    and control of USD(AT&L). However, DoD Directive 5105.62 provides DTRA
    responsibilities for the CTR Program and states that the Director of DTRA is
    responsible to USD(P) for implementing the CTR Program. Specific DTRA
    responsibilities include development of long-term program plans and objectives,
    support to international arms control treaties and delegations, execution of
    implementing agreements and memoranda of understanding, and development of
    technical requirements with the ministries and agencies of recipient states.

            Threat Reduction Advisory Committee. In July 1998, USD(AT&L)
    established the Threat Reduction Advisory Committee. The Committee advises
    USD(AT&L) on matters related to the DTRA mission. The Committee identifies
    and considers emerging threats from WMD, reviews counters to such threats, and
    assesses the adequacy of responses to national policy and emerging threats.
    Committee members include leading civilians, retired flag officers, and senior
    representatives from other Federal agencies.


Objectives
    Our overall audit objective was to evaluate the sufficiency and effectiveness of
    organizational arrangements between the CTR policy office within USD(P) and
    the CTR implementation office at DTRA. Specifically, we evaluated the
    sufficiency of organizational arrangements between USD(AT&L), USD(P), and
    DTRA to ensure that CTR projects were effectively planned and implemented and
    that CTR Program decisions were properly coordinated. See Appendix A for a
    discussion of the scope and methodology and Appendix B for prior coverage
    related to the objectives.




                                       3
            Effectiveness and Sufficiency of
            Organizational Arrangements
            USD(AT&L) did not fulfill its responsibilities for managing the
            implementation and execution of CTR projects. That occurred because
            the organizational arrangements between USD(AT&L), USD(P), and
            DTRA were insufficient. Specifically, USD(AT&L) positions responsible
            for CTR oversight were vacant for almost 5 years, and DoD directives did
            not clearly define the planning and oversight responsibilities of
            USD(AT&L) and USD(P) or provide an adequate chain of command
            between the organizations responsible for implementation and those
            responsible for oversight. The lack of oversight by USD(AT&L) may
            have contributed to the disbursement of $195.2 million on two projects
            that will not be used for their intended purposes. Also, the lack of
            oversight by USD(AT&L) may have contributed to the possibility that two
            other projects, for which DoD has invested $576.7 million, will not be
            fully used for their intended purposes.


Management Control Guidance
     Office of Management and Budget Circular No. A-123, “Management
     Accountability and Control,” June 21, 1995, provides guidance to Federal
     managers for improving the accountability and effectiveness of Federal programs
     and operations. The circular states that management controls, including
     organization, policies, and procedures, are tools that reasonably ensure that
     programs achieve the desired results and that safeguard the integrity of the
     programs. The circular requires managers to incorporate basic management
     controls in strategies, plans, guidance, and procedures that govern their programs
     and operations and states that the controls shall be consistent with specific
     standards drawn from the “Standards for Internal Control in the Federal
     Government,” (the Standards), revised November 1999, by the General
     Accounting Office.

     The Standards provide the framework for establishing and maintaining internal
     controls within the Federal Government. The Standards state that internal
     controls, which are synonymous with management controls, serve as the first line
     of defense in safeguarding assets. The Standards state that good internal controls
     require the organizational structure to clearly define key areas of authority and
     responsibility and establish appropriate lines of reporting. The Standards also cite
     reviews of performance by top-level management as an example of a control
     activity.


Fulfilling Responsibilities
     Between October 1998 and July 2003, USD(AT&L) did not fulfill its
     responsibility for managing the execution and implementation of CTR projects.


                                          4
           Specifically, USD(AT&L) did not actively participate in the planning,
           programming, and budgeting activities related to the CTR Program nor evaluate
           whether procurements for CTR projects should have received management
           attention either because of the project costs or because of the congressional,
           national, and international interest that the program generates. Also,
           USD(AT&L) did not evaluate whether DTRA was effectively managing costs,
           schedules, or performance of CTR projects. Instead, DUSD(TSP&CP) oversaw
           project implementation and monitored progress and issues on CTR projects, even
           though, according to the Director, CTR Policy, the DUSD(TSP&CP) staff were
           not acquisition certified1 or responsible for acquisition or program management,
           cost estimating, or financial management. USD(AT&L) would be better qualified
           to provide that oversight since USD(AT&L) is responsible for many of the areas
           associated with the CTR Program—environmental security; military construction;
           nuclear, chemical, and biological matters; and procurement.

           During the time that USD(AT&L) positions were vacant, CTR projects became
           more complex, costly, and risky. Initially, DoD provided equipment, support, and
           training so that FSU countries could destroy their own WMD and improve the
           infrastructure needed to destroy those weapons. In the mid-1990s, however, DoD
           began hiring companies to coordinate and integrate the destruction of WMD
           because the FSU countries could no longer afford to perform the work, and the
           work was falling behind schedule. Several of those projects, which often took
           years to complete, involved the construction of complex facilities to either store
           or destroy weapons. Two of those projects, the liquid propellant disposition
           facility and the solid rocket motor disposition facility, have been cancelled.
           Although the fissile material storage facility and the chemical weapons
           destruction facility are ongoing, they ultimately may not be fully used for their
           intended purposes.


Organizational Arrangements
           The lack of management oversight occurred because the organizational
           arrangements between USD(AT&L), USD(P), and DTRA were insufficient.
           Specifically, positions in USD(AT&L) responsible for CTR oversight were
           vacant for almost 5 years, and DoD directives did not clearly define USD(AT&L)
           responsibilities or provide a direct chain of command between DTRA, which was
           responsible for implementation of the program, and the Secretary of Defense
           offices, which were responsible for oversight of the program.

           Vacant Positions. USD(AT&L) did not fulfill its responsibilities for managing
           the CTR Program because the positions with responsibility for oversight of the
           CTR Program were vacant for almost 5 years between October 1998 and
           July 2003. Those ATSD(NCB) positions were left vacant after the Deputy
           Secretary of Defense unsuccessfully attempted to abolish the position of the
           ATSD(NCB). In a December 1997 program budget decision, DoD reported that

1
    Career acquisition professionals in DoD are required to meet certain education, training, and experience
    standards. There are three certification levels: (I) entry or basic; (II) intermediate or journeyman; and,
    (III) advanced or senior.



                                                        5
it would disestablish the ATSD(NCB) office in October 1998. That decision was
to help meet a Defense Reform Initiative effort to reduce staffing levels in the
Office of the Secretary of Defense. Although House Report 105-736
accompanying H.R. 3616 on the Strom Thurmond National Defense
Authorization Act for FY 1999 urged the President to submit a nomination for the
ATSD(NCB) position, that position remained unfilled and staff members that
managed the CTR Program at ATSD(NCB) were re-assigned to DTRA in
October 1998. That left no one responsible for the CTR Program at ATSD(NCB).

After ATSD(NCB) staff were transferred to DTRA, DTRA reported to the
Director of Defense Research and Engineering, a component of USD(AT&L).
However, according to USD(P) officials and an ATSD(NCB) official with CTR
Program responsibilities who was formerly assigned to the Director of Defense
Research and Engineering, the Director of Defense Research and Engineering did
not exercise direction and control of the CTR Program. DTRA officials also
stated that during the 5-year period that ATSD(NCB) positions were vacant, the
Director of Defense Research and Engineering received only two CTR-related
briefings from DTRA staff. The former official from the Director of Defense
Research and Engineering stated that between June 1999 and November 2001, he
spent less than 40 hours working on CTR-related issues, and those efforts were
limited to preparing for, participating in, and following up to briefings of visits by
Russian scientists to the Los Alamos National Laboratory. Also, according to
DTRA officials, the Office of the Director of Defense Research and Engineering
was not on the DTRA distribution list for CTR management reports and those
officials did not attend any of the quarterly CTR Program reviews that were
attended by the staff of the IG DoD between April 2001 and April 2003. Officials
from the Director of Defense Research and Engineering did not attend the semi-
annual executive review with Russian officials that was attended by the staff of
the IG DoD in January 2003.

Management Action Taken. In November 2001, the President appointed an
ATSD(NCB). According to ATSD(NCB) staff, the new appointee requested that
the Threat Reduction Advisory Committee review the CTR Program. In
March 2003, the Committee recommended that a Deputy Assistant to the
Secretary of Defense position be created in ATSD(NCB) to develop, along with
the DUSD(TSP&CP), yearly CTR strategic plans that connect CTR activities to
related DoD policies and programs. In July 2003, the Office of the ATSD(NCB)
was reorganized to establish the position of Deputy Assistant to the Secretary of
Defense (Chemical Demilitarization and Threat Reduction), responsible for
providing oversight and direction for implementation of the CTR Program.
Responsibilities included providing guidance for planning and implementation of
CTR policy in coordination with USD(P) and establishing and co-chairing CTR
steering committees and working groups with the DUSD(TSP&CP). Also, in
July 2003, a civilian official and a military officer from the CTR Directorate,
DTRA, were assigned to the ATSD(NCB) office. The civilian position, which
was being filled temporarily, was the acting Chief, Cooperative Threat Reduction.
The military assignment, which was permanent, was to assist the Deputy
Assistant to the Secretary of Defense (Chemical Demilitarization and Threat
Reduction).




                                      6
Defining Responsibilities. DoD Directive 5134.8 and DoD Directive 5111.8
define the responsibilities of USD(AT&L) and USD(P) offices for the CTR
Program, and DoD Directive 5105.62 defines the CTR Program responsibilities of
DTRA. However, DoD Directive 5134.8 does not clearly define the
responsibilities of USD(AT&L) and DoD Directive 5105.62 does not provide an
adequate chain of command between DTRA, which is responsible for
implementation of the program, and USD(P), which is responsible for oversight.
After clarifying USD(AT&L) and USD(P) responsibilities, those offices need to
determine the types and frequency of information each office needs to receive
from DTRA in order to fulfill its managerial responsibilities.

        DoD Directive 5134.8. DoD Directive 5134.8 defines the CTR Program
responsibilities of ATSD(NCB). Although DoD Directive 5134.8 states that
ATSD(NCB) “manages execution and implementation of concluded
[implementing agreements for] CTR assistance projects,” it does not define
ATSD(NCB) authority, direction, and control over DTRA or the working
relationship between the ATSD(NCB) and the Assistant Secretary of Defense
(International Security Policy) for coordinating strategic guidance for the CTR
Program. Also, DoD Directive 5134.8 does not define the responsibilities of the
Deputy Assistant to the Secretary of Defense (Chemical Demilitarization and
Threat Reduction) for the CTR Program. Clearly defining responsibilities will
help ensure that all duties are performed and that organizational conflicts and
overlapping duties are minimized. Clearly defined responsibilities would also
help ensure that there is adequate oversight to minimize cost overruns and
schedule delays and that projects are used for their intended purposes.

         DoD Directive 5111.8. DoD Directive 5111.8 defines the CTR Program
responsibilities of the Office of the Assistant Secretary of Defense (International
Security Policy). Although DoD Directive 5111.8 states that the Assistant
Secretary of Defense (International Security Policy) is to develop, coordinate, and
oversee the implementation of policy for the CTR Program, the Directive does not
identify the DoD offices with which it should coordinate those activities. Also,
DoD Directive 5111.8 does not fully implement the 1994 Decision Memorandum
in that it does not address the leader-advisor concept or state that the Assistant
Secretary of Defense (International Security Policy) is responsible for developing
and negotiating detailed implementing agreements with FSU countries, with
ATSD(NCB) acting as a key advisor.

        DoD Directive 5105.62. DoD Directive 5105.62 defines the CTR
Program responsibilities and reporting relationships of DTRA and includes
additional responsibilities of USD(P). The Directive states that DTRA shall
develop long-term program plans and objectives to support the CTR Program and
execute CTR implementing agreements pursuant to USD(P) guidance and
policies. However, it states that DTRA operates under the authority, direction,
and control of USD(AT&L). As such, DoD Directive 5105.62 creates a situation
where there is a break in the chain of command. That is, DTRA reports to one
office but is responsible to another office for program execution. There is no
clear line of communication between USD(P) and USD(AT&L) for the CTR
Program. In order for that organizational layout to be successful, communication
between DTRA and USD(P) needs to flow through USD(AT&L).



                                     7
Project Performance
    Because USD(AT&L) is responsible for oversight of acquisitions; military
    construction; and matters related to nuclear, chemical, and biological weapons,
    oversight from that office could have ensured that DTRA was using effective
    acquisition methods and that the facilities were effectively designed to meet
    intended purposes. In addition, USD(AT&L) could have assisted in establishing
    milestones, identifying risks, and decision making when DTRA was at risk of not
    meeting project milestones.

            Managing Performance. The CTR Directorate in DTRA is responsible
    for managing performance of CTR projects. The CTR Directorate tracks cost,
    schedule, and overall performance of ongoing CTR projects and reports the status
    during quarterly program reviews. Those reviews, attended by officials from
    DUSD(TSP&CP), provide metrics that measure costs and schedules for
    individual CTR projects. The reviews also present other issues that are critical to
    individual project completion and DTRA actions to resolve those issues. In 2000,
    DTRA began to include managing costs, schedules, and performance as general
    risk areas to the four projects in the project plans. The project plans also included
    strategies for controlling the risks. However, schedule delays and other critical
    issues led to Russia not using the liquid propellant disposition facility or the solid
    rocket motor destruction facility, as reported in IG DoD Report No. D-2002-154
    and IG DoD Report No. D2003-131.

            Project Outcomes. CTR projects to assist Russia in converting liquid
    propellant into commercial products and disposing of solid rocket motors were
    not used by Russia for their intended purposes. In addition, the CTR projects to
    assist Russia in the storage of its fissile material and the destruction of its
    chemical weapons are at risk of not being fully used for their intended purposes.

             In IG DoD Report No. D-2002-154, we reported that although DoD spent
    $95.5 million through July 2, 2002, to design and build facilities that would
    convert liquid propellant into commercial products, Russian officials informed
    DoD in February 2002 that Russia had used the liquid propellant for its
    commercial space program. In IG DoD Report No. D-2003-131, we reported that
    DoD spent $99.7 million through April 2003 to design and begin construction of a
    facility to dispose of solid rocket motors, and in January 2003 Russian officials
    informed DoD that Russia would not provide the land allocation to support the
    facility to dispose of solid rocket motors. The outcome of the liquid propellant
    project was affected by a lack of requirements in the implementing agreement for
    Russia to provide the liquid propellant. The outcome of the solid rocket motor
    project was also affected by a lack of requirements in the implementing
    agreement for Russia to provide the land and permits necessary to build and
    operate the facility. In addition, for the solid rocket motor project, there were no
    assurances that adequate acquisition planning occurred or that contracts for the
    projects adequately protected the U.S. Government’s interests.

           In IG DoD Report No. D-2004-039, we reported that although DoD had
    invested $576.7 million on the chemical weapons destruction facility and fissile
    material storage facility, as of July 2003, those projects were at risk of not being


                                          8
    fully used for their intended purpose. Similar to the situation with the liquid
    propellant disposition facility project, there are risks that Russia may not fully
    utilize the fissile material storage facility. Also, similar to the situation with the
    solid rocket motor disposition facility project, there are risks that Russia will
    rescind the land allocation for the chemical weapons destruction facility. There
    are also risks that delays in obtaining design approvals for the chemical weapons
    destruction facility will cause the construction schedule to slip and increase costs,
    that Russia will not use the designed bituminization building, and that
    construction and operation of the facility will be suspended or terminated because
    of environmental laws.

            Had USD(AT&L) staffed the positions responsible for CTR management
    between October 1998 and July 2003, USD(AT&L) may have identified that the
    lack of requirements in the implementing agreements were risks to project
    outcomes and identified actions that DTRA could take to mitigate those risks.
    Also, for the solid rocket motor disposition facility project, USD(AT&L) may
    have minimized U.S. Government losses by requiring that Russia obtain the land
    allocation before allowing DTRA to proceed with the facility design and
    construction.


Conclusions
    Although the CTR Program expanded from a program where DoD provided
    Russia with equipment and associated support and training to a program where
    DoD constructed complex facilities to either store or destroy weapons,
    USD(AT&L) did not fulfill its responsibilities for managing the implementation
    and execution of CTR projects. DoD directives and the 1994 Decision
    Memorandum provided the roles and responsibilities of USD(AT&L) and
    USD(P) for the CTR Program. However, because ATSD(NCB) did not staff
    positions responsible for CTR Program oversight between October 1998 and
    July 2003, USD(P) was solely responsible for oversight of the CTR Program.
    While the CTR Program is primarily executed through contracts, according to the
    Director, CTR Policy at USD(P), his office was not technically responsible for the
    management of acquisitions and was not staffed with employees trained or
    certified in acquisition management. Although other factors were involved in
    outcomes on CTR projects, oversight by trained acquisition professionals and
    technical experts should reduce the risks on existing and new CTR projects.

    ATSD(NCB) was reorganized in 2003 to establish the position of Deputy
    Assistant to the Secretary of Defense (Chemical Demilitarization and Threat
    Reduction), responsible for providing oversight and direction for the CTR
    Program. That position was filled in July 2003. DoD could continue to improve
    management oversight and coordination between USD(AT&L), USD(P), and
    DTRA by revising DoD directives to clarify strategic planning and other roles and
    responsibilities for the CTR Program. In addition, DoD needs to determine the
    appropriate number and qualifications of permanent civilian and military
    positions required to staff the Office of the Deputy Assistant to the Secretary of
    Defense (Chemical Demilitarization and Threat Reduction) and then fill the
    positions with qualified staff.


                                          9
Recommendations and Management Comments
    1. We recommend that the Director, Administration and Management:

            a. Revise DoD Directive 5134.8, “Assistant to the Secretary of Defense
    for Nuclear and Chemical and Biological Defense Programs (ATSD(NCB))”
    to clarify the strategic planning and other responsibilities and coordination
    requirements of the Assistant to the Secretary of Defense (Nuclear and
    Chemical and Biological Defense Programs) for the Cooperative Threat
    Reduction Program.

    Management Comments. The Director, Administration and Management
    concurred. Although not required to comment, the ATSD(NCB) agreed with our
    recommendation. The ATSD(NCB) stated that he is revising the ATSD(NCB)
    charter to reflect the CTR mission and will provide the revised charter to the
    Director, Administration and Management.

           b. Revise DoD Directive 5111.8, “Assistant Secretary of Defense for
    Strategy and Threat Reduction (ASD(S&TR)),” to:

                  (1) Change the name of the office from Assistant Secretary of
    Defense (Strategy and Threat Reduction) to the Assistant Secretary of
    Defense (International Security Policy).

                  (2) Clarify the strategic planning and other responsibilities
    and coordination requirements of the Assistant Secretary of Defense
    (International Security Policy) for the Cooperative Threat Reduction
    Program.

    Management Comments. The Director, Administration and Management
    concurred. Although not required to comment, the USD(P) agreed with our
    recommendation.

          c. Revise DoD Directive 5105.62, “Defense Threat Reduction Agency
    (DTRA),” to clarify the responsibilities and coordination requirements of the
    Defense Threat Reduction Agency for the Cooperative Threat Reduction
    Program.

    Management Comments. The Director, Administration and Management
    concurred. Although not required to comment, the ATSD(NCB) and DTRA
    agreed with our recommendation. The ATSD(NCB) stated that he will work with
    the Director, Administration and Management and DTRA to review and revise
    the DTRA charter. The Director, DTRA stated that he is working closely with
    ATSD(NCB) to define the roles, responsibilities, and coordination requirements
    of DTRA.




                                      10
2. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics:

       a. Determine the number and qualifications of permanent civilian
and military positions required in the Office of the Deputy Assistant to the
Secretary of Defense (Chemical Demilitarization and Threat Reduction).

       b. Expeditiously fill the positions.

       c. Determine the types and frequency of management information
needed from the Defense Threat Reduction Agency in order to fulfill Under
Secretary of Defense for Acquisition, Technology, and Logistics roles,
responsibilities, and coordination requirements for the Cooperative Threat
Reduction Program.

Management Comments. The ATSD(NCB) concurred, stating that the Deputy
Assistant to the Secretary of Defense (Chemical Demilitarization and Threat
Reduction) will be staffed with up to five positions dedicated to CTR with
Level III Acquisition Certification in Program Management. The ATSD(NCB)
stated that two positions have been filled and he is recruiting for the three
remaining positions through the Inter-Governmental Personnel Act. The
ATSD(NCB) also stated that the Assistant to the Secretary of Defense (Chemical
Demilitarization and Threat Reduction) and DTRA have developed a reporting
system and a shared electronic archive. The first report on CTR was delivered to
the Assistant to the Secretary of Defense (Chemical Demilitarization and Threat
Reduction) in November 2003.




                                   11
Appendix A. Scope and Methodology
   We reviewed DoD methods and policies used to administer the CTR Program,
   which included program, project, and financial management. The review
   included provisions of Nunn-Lugar legislation, international agreements, the
   1994 Decision Memorandum, OMB circulars, Program Budget Decisions, and
   DoD directives. The documentation reviewed was dated from December 1991
   through August 2003.

   We conducted interviews with officials from the Office of the USD(AT&L), the
   Office of the USD(P), DTRA, and the Office of the Director for Administration
   and Management.

   We performed this audit from October 2002 through October 2003 in accordance
   with generally accepted government auditing standards. As part of the review, we
   issued reports on CTR projects to design and construct disposal facilities for
   liquid propellant and solid rocket motors, storage facilities for fissile materials,
   and destruction facilities for chemical weapons. The scope and methodology for
   the reviews of those projects appear in IG DoD Report No. D-2002-154, IG DoD
   Report No. D-2003-131, and IG DoD Report No. D-2004-039. We did not
   review the management control program in this audit because we reported on it in
   IG DoD Report No. D-2004-039.

   We evaluated the ability of DoD to efficiently and effectively manage the CTR
   Program. Specifically, we identified and analyzed the sufficiency of
   organizational arrangements between USD(AT&L), USD(P), and DTRA. The
   review included interviews and an examination of available documentation to
   determine the implementation of and evolution of roles and responsibilities for
   administering the CTR Program.

   Use of Computer-Processed Data. We did not evaluate the general and
   application controls of the Centralized Accounting and Financial Resource
   Management System, which accounts for DTRA funds, because that was outside
   the scope of our review. To support the amount that the United States had
   disbursed for the liquid propellant and solid rocket motor disposition facilities, the
   fissile material storage facility, and the chemical weapons destruction facility
   projects, we relied on data from that system. Inadequate controls in the
   Centralized Accounting and Financial Resource Management System could affect
   the disbursements included in this report.




                                        12
Appendix B. Prior Coverage
   During the last 5 years, the General Accounting Office (GAO) and the IG DoD
   have issued 17 reports, including congressional testimonies, discussing the
   Cooperative Threat Reduction Program. Unrestricted GAO reports can be
   accessed over the Internet at http://www.gao.gov. IG DoD reports can be
   accessed at http://www.dodig.osd.mil/audit/reports.


GAO
   GAO Report No. GAO-03-1008R, “FY 2004 Annual Report on the Cooperative
   Threat Reduction Program,” July 18, 2003

   GAO Report No. GAO-03-627R, “FY 2003 Annual Report on the Cooperative
   Threat Reduction Program,” April 8, 2003

   GAO Report No. GAO-03-526T, “Weapons of Mass Destruction: Observations
   on U.S. Threat Reduction and Nonproliferation Programs in Russia,” March 5,
   2003

   GAO Report No. GAO-03-341R, “Cooperative Threat Reduction Program
   Annual Report,” December 2, 2002

   GAO Report No. GAO-01-694, “Cooperative Threat Reduction: DoD Has
   Adequate Oversight of Assistance, but Procedural Limitations Remain,”
   June 19, 2001

   GAO Report No. NSIAD-00-138, “Biological Weapons: Effort to Reduce
   Former Soviet Threat Offers Benefits, Poses New Risks,” April 28, 2000

   GAO Report No. NSIAD-00-40, “Cooperative Threat Reduction: DoD’s 1997-98
   Reports on Accounting for Assistance Were Late and Incomplete,”
   March 15, 2000

   GAO Report No. T-NSIAD/RCED-00-119, “Weapons of Mass Destruction:
   U.S. Efforts to Reduce Threats From the Former Soviet Union,” March 6, 2000

   GAO Report No. RCED/NSIAD-00-82, “Nuclear Nonproliferation: Limited
   Progress in Improving Nuclear Material Security in Russia and the Newly
   Independent States,” March 6, 2000

   GAO Report No. NSIAD-99-76, “Weapons of Mass Destruction: Effort to
   Reduce Russian Arsenals May Cost More, Achieve Less Than Planned,”
   April 13, 1999




                                     13
IG DoD
    IG DoD Report No. D-2004-039, “Cooperative Threat Reduction Construction
    Projects,” December 18, 2003

    IG DoD Report No. D-2003-131, “Cooperative Threat Reduction Program: Solid
    Rocket Motor Disposition Facility Project,” September 11, 2003

    IG DoD Report No. D-2003-059-T, “Statement of David K. Steensma, Deputy
    Assistant Inspector General for Auditing, Office Inspector General of the
    Department of Defense to the House Committee on Armed Services on
    U.S.-Russian Cooperative Threat Reduction and Non-Proliferation Programs,”
    March 4, 2003

    IG DoD Report No. D-2002-154, “Cooperative Threat Reduction Program Liquid
    Propellant Disposition Project,” September 30, 2002

    IG DoD Report No. D-2002-033, “Management Costs Associated With the
    Defense Enterprise Fund,” December 31, 2001

    IG DoD Report No. D-2001-074, “Cooperative Threat Reduction Program,”
    March 9, 2001

    IG DoD Report No. D-2000-176, “Defense Enterprise Fund,” August 15, 2000




                                      14
Appendix C. Report Distribution

Office of the Secretary of Defense
Deputy Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Assistant to the Secretary of Defense (Nuclear, Chemical, and Biological Defense
      Programs)
      Deputy Assistant to the Secretary of Defense (Chemical Demilitarization and
        Threat Reduction)
Under Secretary of Defense for Policy
   Assistant Secretary of Defense (International Security Policy)
      Deputy Under Secretary of Defense (Technology Security Policy and
        Counterproliferation)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
General Counsel of the Department of Defense
Director, Administration and Management

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Commands
Commander, U.S. European Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Threat Reduction Agency




                                          15
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Foreign Relations
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform
House Committee on International Relations
House Subcommittee on International Terrorism, Nonproliferation and Human Rights,
  Committee on International Relations




                                        16
Under Secretary of Defense for Policy
Comments




                       17
Assistant to the Secretary of Defense (Nuclear
and Chemical and Biological Defense Programs)
Comments




                      18
19
Director, Administration and Management
Comments




                     20
Defense Threat Reduction Agency Comments
                                           Final Report
                                            Reference




                                           Deleted




                    21
Team Members
The Readiness and Logistics Support Directorate, Office of the Deputy Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Evelyn R. Klemstine
Donney J. Bibb
Michael T. Brant
Lynne M. Champion
David L. Leising
Susann L. Cobb
